                                              EMPLOYEE BENEFITS SECURITY
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              PROXY-VOTING MAY NOT BE SOLELY FOR THE
                                              ECONOMIC BENEFIT OF RETIREMENT PLANS




                                                                  Date Issued:     March 31, 2011
                                                               Report Number:    09-11-001-12-121
U.S. Department of Labor                                          March 31, 2011
Office of Inspector General
                                                                  Proxy-voting May Not be Solely for the
Office of Audit
                                                                  Economic Benefit of Retirement Plans


BRIEFLY…                                                          WHAT OIG FOUND
                                                                  EBSA does not have adequate assurances that fiduciaries
Highlights of Report Number 09-11-001-12-121, to the              or third parties voted proxies solely for the economic
Assistant Secretary for Employee Benefits Security.               benefit of plans. EBSA’s proxy-voting requirements do not
                                                                  specifically require fiduciaries or investment managers to
WHY READ THE REPORT                                               document (1) the monitoring of proxy-voting activities or (2)
The private retirement system in the United States involves       economic rationale for proxy-voting decisions. For the
about $6 trillion of investments, including approximately         calendar year 2009, we found that fiduciaries did not
$2.3 trillion of corporate stock for about 120 million            document that they monitored proxy-voting decisions for
Americans. Owning this corporate stock includes the right         90 percent of plans we reviewed, and proxy voters were
to vote on corporate issues. How a plan votes on corporate        unable to provide documentation to substantiate the
issues during company stockholders meetings can affect            economic benefit of proxy-voting decisions for 2,455 of
the retirement security of plan participants and                  3,194 (77 percent) proposals, representing votes on 574
beneficiaries.                                                    million shares of stock with values totaling $11.6 billion.

Since many retirement plans invest in corporate stock,            We also noted EBSA has devoted few resources to
proxy-voting is integral to the fiduciary act of managing         enforcing proxy-voting requirements. While EBSA did
retirement plan investments, and the plan trustee can             conduct three proxy-voting projects between 1988 and
exercise the votes itself or through (i) a named fiduciary        1996, EBSA did not routinely review proxy-voting
through instruction of the plan trustee, or (ii) the investment   decisions. EBSA lacks the statutory authority to assess
manager to which investment authority of the relevant             penalties in cases that did not result in financial losses to
asset has been delegated. The Employee Benefits                   plans and it is difficult to attribute monetary losses to
Administration (EBSA) requires fiduciaries to vote solely         proxy-voting decisions. EBSA also stated court cases have
for the plan's economic interests and requires named              shown that fiduciaries may not need to document the
fiduciaries periodically to monitor proxy-voting decisions        rationale for their fiduciary decisions.
made by third parties.
                                                                  Without additional transparency and enhanced
In 2004, the General Accountability Office (GAO) issued           enforcement activities, concerns about the fiduciary use of
an audit report entitled “Pension Plans: Additional               plan assets to support or pursue proxy proposals for
Transparency and Other Actions Needed in Connection               personal, social, legislative, regulatory, or public policy
with Proxy-voting.” GAO found that ERISA presented legal          agendas, which have no clear connection to increasing the
challenges for bringing cases such that it was often difficult    value of investments used for the payment of benefits or
to obtain evidence that the fiduciary was influenced in his       plan administrative expenses, may not be properly
or her voting by something other than the sole interests of       addressed.
plan participants. Additionally, GAO found DOL had no
statutory authority to impose a penalty without first             WHAT OIG RECOMMENDED
assessing damages and securing a monetary recovery. In            We made three recommendations to the Assistant
part, because of these challenges, GAO pointed out that           Secretary for the Employee Benefits Security: (1) propose
DOL had devoted few resources to enforcing proxy-voting           amending ERISA to give the Secretary of Labor the
by plans.                                                         authority to assess monetary penalties against fiduciaries
                                                                  for failure to comply with proxy-voting requirements, (2)
WHY OIG CONDUCTED THE AUDIT                                       revise proxy-voting requirements in 29 CFR 2509.08-2 to
We conducted the audit to determine to what extent                require documented support for fiduciary monitoring and
EBSA had assurances that proxies were voted solely                the economic benefit for proxy-voting decisions, and (3)
for the economic benefit of plan participants and                 include fiduciary proxy-vote monitoring in enforcement
beneficiaries.                                                    investigations to ensure that the economic benefit for
                                                                  proxy-voting decisions are appropriately documented.
READ THE FULL REPORT
To view the report, including the scope, methodology, and         The Assistant Secretary for Employee Benefits Security
full agency response, go to:                                      did not agree to implement our recommendations. While
http://www.oig.dol.gov/public/reports/oa/2011/09-11-001-          EBSA supported expanding ERISA civil penalties for all
12-121.pdf                                                        fiduciary breaches, it did not believe proxy-voting activities
                                                                  warranted specific legislative changes, specific
                                                                  documentation requirements, or increased enforcement
                                                                  activities.
PAGE INTENTIONALLY LEFT BLANK 

                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — To what extent does EBSA have assurances that proxies were voted 

              solely for the economic benefit of plan participants and 

              beneficiaries? ....................................................................................... 4

         Proxy-voting may not be solely for the economic benefit of retirement 

         plans..................................................................................................................... 4


         Finding 1 — EBSA does not have adequate assurances that proxies were 

                    voted solely for the economic benefit of retirement plans. ................ 4


Recommendations ........................................................................................................ 8


Appendices
         Appendix A Background ..................................................................................... 11

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 13

         Appendix C Acronyms and Abbreviations .......................................................... 15

         Appendix D EBSA Response to Draft Report ..................................................... 17

         Appendix E Acknowledgements ......................................................................... 21





                                                                  Proxy-Voting May Not Be For The Economic Benefit
                                                                                       Report No. 09-11-001-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Proxy-Voting May Not Be For The Economic Benefit
                                     Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 31, 2011

                         Assistant Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary for
Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The private retirement system in the United States involves about $6 trillion of
investments, including approximately $2.3 trillion of corporate stock for about 120 million
Americans. The retirement security of plan participants can be affected by how certain
issues are voted on during company stockholders meetings.

The Employee Retirement Income Security Act of 1974 (ERISA) is the primary federal
law governing these retirement plan investments and private sector employee benefit
plans in general. ERISA assigns the Department of Labor (DOL) primary responsibility
to enforce the fiduciary provisions of ERISA Title I. DOL administers this responsibility
through EBSA.

Owning corporate stock gives a shareholder the right to vote on proposals concerning
corporate policies and governance. Shareholder voting is the primary means by which
shareholders can influence the company's operations, its corporate governance, and
activities of social responsibility that may fall outside of financial considerations.
Proxy-voting allows shareholders to vote when they cannot attend a shareholder
meeting.

Since many retirement plans invest in corporate stock, proxy-voting is integral to the
fiduciary act of managing retirement plan investments, and can be exercised by (i) the
plan trustee, (ii) a named fiduciary through instruction of the plan trustee, or (iii) the
investment manager to which investment authority of the relevant asset has been
delegated. EBSA requires fiduciaries to vote solely for the plan's economic interests and
requires named fiduciaries periodically to monitor proxy-voting decisions made by third
parties.

We conducted the audit to determine to what extent EBSA had assurances that proxies
were voted solely for the economic benefit of plan participants and beneficiaries.



                                                  Proxy-Voting May Not Be For The Economic Benefit
                                              1                        Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General



To accomplish our audit, we reviewed applicable EBSA policies, procedures, and
enforcement actions for fiscal years 2008 through 2010. We interviewed retirement plan
fiduciaries, investment managers, EBSA officials, and Securities and Exchange
Commission (SEC) officials to gain an understanding of the proxy process and voting
decisions. We reviewed a stratified random sample of 43 retirement plans with common
stock investments.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

EBSA does not have adequate assurances that fiduciaries or third parties voted proxies
solely for the economic benefit of plans. EBSA’s proxy-voting requirements do not
specifically require fiduciaries or investment managers to document (1) the monitoring
of proxy-voting activities or (2) the economic rationale for proxy-voting decisions. For
the calendar year 2009, we found that fiduciaries did not document that they monitored
proxy-voting decisions for 90 percent of plans we reviewed, and proxy voters were
unable to provide documentation to substantiate the economic benefit of proxy-voting
decisions for 2,455 of 3,194 proposals (77 percent), representing votes on 574 million
shares of stock with values totaling $11.6 billion.

We also noted EBSA has devoted few resources to enforcing proxy-voting
requirements. While EBSA did conduct three proxy-voting projects between 1988 and
1996, EBSA did not routinely review proxy vote decisions. According to EBSA, it lacks
the statutory authority to assess penalties in cases that did not result in financial losses
to plans as ERISA bases assessed penalties on monetary losses and it is difficult to
attribute monetary losses to proxy voting decisions. EBSA also stated court cases have
shown that fiduciaries may not need documentation to support their fiduciary decisions.

Without additional transparency and enhanced enforcement activities, concerns about
proxy-voting that has no clear connection to increasing the value of investments may
not be properly addressed.

We made three recommendations to the Assistant Secretary for Employee Benefits
Security: (1) propose amending ERISA to give the Secretary of Labor the authority to
assess monetary penalties against fiduciaries for failure to comply with proxy-voting
requirements, (2) revise proxy-voting requirements in 29 CFR 2509.08-2 to require
documented support for fiduciary monitoring and the economic benefit for proxy-voting
decisions, and (3) include fiduciary proxy-vote monitoring in enforcement investigations



                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             2                        Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General



to ensure that the economic benefit for proxy-voting decisions are appropriately
documented.

In response, the Assistant Secretary for Employee Benefits Security stated that EBSA
would support expanding ERISA civil penalties for all fiduciary breaches, including proxy
voting violations, but would not support an amendment to ERISA specifically for proxy-
voting. EBSA also did not believe imposing an administrative burden and expense on
plans by requiring more documentation was justified. In addition, they did not feel there
was a basis for uniquely singling out fiduciary proxy voting activities for a special
documentation rule that does not apply to other fiduciary actions. The Assistant
Secretary’s entire response is contained in Appendix D.

While the extent to which the lack of authority to assess penalties extends beyond
proxy-voting is beyond our audit scope, we accept EBSA’s position. However, EBSA did
not state what actions it was taking to resolve the issue in either proxy-voting alone or in
overall ERISA enforcement. Corrective action to resolve the larger issue, including
proxy-voting, would resolve the specific proxy-voting issue as well.

We do not agree that there would be an undue administrative burden on plans. The
Interpretive Bulletin requires plan fiduciaries to determine the economic benefit to the
plan on proxy-voting. EBSA states fiduciaries are making these determinations; we are
recommending these determinations be documented. EBSA states that when a
manager’s rationale on a vote for recurring issues is to follow a uniform internal policy
the manager would only need to document the reasons for any vote which goes against
the policy. For records we reviewed related to proxy-voting issues not covered by
internal policies, the rationale for proxy-voting decisions, when documented, generally
included a brief explanation directly in the proxy-voting record. Such a practice shows it
would take minimal time to document the rationale for proxy-voting decisions.

Furthermore, EBSA proxy-voting regulations state fiduciaries must be prepared to
articulate the economic benefit of proxy-vote decisions. We find it difficult to understand
how plan fiduciaries can properly monitor proxy-voting activities by accepting verbal
explanations of decisions made up to a year earlier, or what can be done if persons
responsible for proxy-voting are no longer available to provide verbal explanations on
proxy-votes.

The OIG maintains that without additional transparency and enhanced enforcement
activities, EBSA cannot have adequate assurance that fiduciaries vote proxies solely for
the economic benefit of plans.




                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             3                        Report No. 09-11-001-12-121
                                           U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDING

Objective — To what extent does EBSA have assurances that proxies were voted
             solely for the economic benefit of plan participants and
             beneficiaries?

       Proxy-voting may not be solely for the economic benefit of retirement plans.

Finding 1 — EBSA does not have adequate assurances that proxies were voted
            solely for the economic benefit of retirement plans.

EBSA does not have adequate assurances that fiduciaries or third parties voted proxies
solely for the economic benefit of plans, and their proxy-voting requirements do not
specifically require fiduciaries or investment managers to document (1) the monitoring
of proxy-voting activities or (2) the economic rationale for proxy-voting decisions.

Documentation Not Required for Monitoring and Economic Benefit of Proxy-
voting Decisions

EBSA’s proxy-voting requirements in 29 CFR 2509.08-2 require whoever is voting
proxies (generally named fiduciaries and investment managers) to consider only those
factors that relate to the economic value of the plan's investment and not subordinate
the interests of the participants and beneficiaries to unrelated objectives. According to
the regulations, any objectives or considerations, or social effects unrelated to the plan's
economic interests cannot be considered. In addition, the named fiduciary of a plan
appointing an investment manager or other party to vote proxies must periodically
monitor the activities with respect to the decisions made and actions taken by the
investment manager regarding proxy-voting decisions. Fiduciaries must be prepared to
articulate a clear basis for concluding that a proxy-vote is more likely than not to
enhance the economic value of the plan’s investment.

The regulations further state that compliance with the duty to monitor necessitates
proper documentation of the activities that are subject to monitoring. Thus, the
investment manager or other responsible fiduciary would be required to maintain
accurate records as to proxy-voting decisions. However, the regulations do not
specifically state the fiduciaries or investment managers must document the economic
benefit in proxy-voting decisions. Neither do the regulations specifically require
fiduciaries to document the monitoring of proxy-voting decisions.

However, in its 1992 proxy-voting project report, EBSA stated that votes affecting the
value of the stock must be documented along with the reasons for the particular vote or
abstention. In its 1996 proxy-voting project report, EBSA stated that to facilitate client
plans' monitoring of proxy voting, an investment manager should maintain, and make
available for client review, records regarding votes cast and the rationale for each vote.
The rationale for a manager's vote may be to follow a uniform internal policy for each
recurring issue, and document the reasons for any vote which goes against the policy,

                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             4                        Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General



or the manager if it has no internal policy as to voting uniformly on recurring issues, will
document the rationale on each specific vote. However, EBSA did not include specific
documentation requirements in its regulations.

According to EBSA and the Office of the Solicitor of Labor, fiduciary court cases have
shown that, absent specific requirements, and depending on the facts and
circumstances, fiduciaries may not have to document the rationale for their fiduciary
decisions. Specifically, in Henry v. Champlain Enterprises Inc., the court found that the
focus was not whether a fiduciary took adequate notes during its investigation, but
whether the fiduciary acted with the prudence required of a fiduciary.

As a result, fiduciaries and investment managers are not documenting the monitoring of
proxy-voting activities or the economic rationale of proxy-voting decisions. Specifically,
for the 2009 plan year we found that fiduciaries were unable to substantiate that they
monitored proxy-voting decisions for 90 percent of sampled plans. Furthermore, we
examined proxy-voting in 43 plans for calendar year 2009 and only 4 plans had
evidence that they had specifically monitored the proxy-voting activities of the plan. The
remaining 39 plans could not provide documented support that they had monitored
proxy-voting activities.

The lack of documentation of fiduciary monitoring over proxy-voting decisions is an
ongoing concern. EBSA previously identified the lack of fiduciary monitoring in its proxy-
voting study in 1996. The study found that additional improvement was needed in the
plans’ monitoring of investment managers to ensure that proxies are voted in
accordance with stated policies. According to EBSA, most plans they reviewed did not
monitor proxy-voting by their investment managers; EBSA stated only about 35 percent
appeared to have performed substantive monitoring of investment managers.

In addition, for 2009 we found that proxy voters did not document the economic benefit
of proxy-voting decisions for 2,455 (77 percent) of 3,194 proposals representing votes
on 574 million shares of stock with values totaling $11.6 billion. The following examples
illustrate where fiduciaries did not document the economic benefit of proxy-voting
decisions and the economic benefit is not apparent:

   •	 A retirement plan fiduciary voted proxies in support of a proposal to implement a
      policy prohibiting grossing-up wages to pay for anticipated income taxes for
      executives on specific benefits. The fiduciary exercised the voting rights of 3.3
      million shares of Honeywell, Inc. common stock valued at $100 million. The
      documented rationale by the proposal’s opponents stated that the grossing-up of
      wages was needed to attract and retain highly qualified executives with the
      leadership skills and experience necessary to drive results and change across a
      global organization and build long-term shareowner value. In contrast, the
      fiduciary did not document the economic benefit to the plan of the vote to support
      the proposal.




                                                  Proxy-Voting May Not Be For The Economic Benefit
                                              5                        Report No. 09-11-001-12-121
                                           U.S. Department of Labor – Office of Inspector General



   •	 A retirement plan fiduciary voted proxies to support 101 proxy proposals to
      approve related-party transactions. The fiduciary exercised the voting rights of
      234,950 shares of OAO Gazprom foreign stock valued at approximately $5.9
      million to approve the related-party transactions. The fiduciary did not document
      the perceived economic benefit of the vote to support the proposals approving
      related-party transactions.

   •	 A retirement plan fiduciary voted proxies to authorize Royal Dutch Shell, a
      foreign company, and its subsidiaries to donate to political organizations up to
      GBP£200,000 (about $320,500 U.S.) and to incur political expenditures up to
      GBP£200,000. The fiduciary exercised the voting rights of 2800 shares common
      stock valued at approximately $140,000. The fiduciary did not document the
      economic benefit of the vote to support the proposals.

   •	 A retirement plan fiduciary voted proxies in support of a proposal to implement a
      comprehensive human rights policy. The fiduciary exercised the voting rights of
      700 shares of Nucor Corporation common stock valued at $21,280. The voting
      record stated, “ISS recommends voting for the proposal due to the lack of a
      comprehensive human rights policy based on internationally accepted norms.”

The economic benefit in these proposals is not apparent and neither the investment
managers nor fiduciaries could provide documented economic rationale for the proxy-
voting decisions.

As a result, it is questionable whether the fiduciary or investment manager making the
proxy-voting decision complied with EBSA requirements to consider only the economic
benefits to the plan when making proxy-voting decisions. It is also questionable whether
fiduciaries who allow investment managers to make proxy-voting decisions are actually
performing adequate monitoring of proxy-voting.

Few Proxy-Voting Enforcement Resources and the Lack of Authority to Assess
Penalties

We also noted EBSA has devoted few resources to enforcing proxy-voting
requirements. While EBSA did conduct three proxy-voting projects between 1988 and
1996, EBSA did not routinely review proxy vote decisions. According to EBSA, it lacks
the statutory authority to assess penalties in cases that did not result in identifiable
financial harm to the plan because ERISA bases assessed penalties on monetary
losses and it is difficult to attribute monetary losses to proxy-voting decisions. EBSA
also stated court cases have shown that fiduciaries may not need documentation to
support their fiduciary decisions.

EBSA officials stated they believed that there is an overall compliance in proxy-voting
activities. Furthermore, they stated that EBSA has a strategic enforcement plan, and
based on this plan and its limited statutory authority and resources, they place their
resources in areas that will result in identifying ERISA violations that EBSA can correct.

                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             6                        Report No. 09-11-001-12-121
                                           U.S. Department of Labor – Office of Inspector General




However, ERISA limits EBSA’s enforcement authority in this area. ERISA ties
enforcement actions to monetary losses and it is difficult, if not impossible, to attribute
monetary losses to proxy-voting decisions. Specifically, under ERISA, EBSA assesses
penalties based on monetary damages or the restoration of plan assets. This penalty is
equal to 20 percent of the “applicable recovery amount,” or any settlement agreed upon
by the Secretary or ordered by a court to be paid.

However, the applicable recovery amount cannot be determined if damages cannot be
valued. According to EBSA, it is difficult to link a single proxy vote to damages to the
plan participants.

Based on these facts, if a fiduciary votes for example in favor of a human rights policy
because of personal feelings, regardless of any economic impact on the plans, it is
impossible to project what impact this has on the plan’s investment. Therefore,
enforcing the requirement to consider only the plans economic benefits is difficult at
best.

Moreover, the fact that fiduciaries do not have to document the economic benefits and
effects of proxy-voting decisions may further complicate proving that the fiduciary was
influenced by something other than plan’s economic interest. This difficulty is shown by
the fact that DOL has never litigated an ERISA violation concerning a proxy-voting
decision. Furthermore, EBSA has not assessed a penalty or removed a fiduciary
because of a proxy-voting decision.

In comparison, the SEC can impose a penalty without first assessing and then securing
monetary damages. Section 203 of the Investor Advisors Act of 1940 gives the SEC
authority to assess penalties ranging from $5,000 to $500,000 per each act that violates
any provision of the Securities Act of 1933, the Securities Exchange Act of 1934, or the
Investment Company Act of 1940.

The use of this authority can be effective. For example, on May 7, 2009, the SEC issued
an order imposing remedial sanctions and a cease-and-desist order to an investment
management company regarding proxy-voting. The SEC found that an investment
management company, after receiving complaints from some of its union-affiliated
clients about pro-management proxy votes, had implemented a third-party proxy-voting
service provider's guidelines that exactly followed the AFL-CIO proxy-voting
recommendations. The investment management company then voted all of its clients'
securities in accordance with these guidelines, regardless of whether the clients were
union-affiliated. The investment management company had selected the guidelines at a
time when it was participating in the annual AFL-CIO Key Votes Survey that ranked
investment advisers based on their adherence to the AFL-CIO recommendations on
certain votes.

In contrast, while EBSA did conduct three proxy-voting projects between 1988 and
1996, EBSA does not routinely review proxy vote decisions with the exception of ESOP

                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             7                        Report No. 09-11-001-12-121
                                           U.S. Department of Labor – Office of Inspector General



investigations. From FYs 2008 through 2009, EBSA opened 476 ESOP investigations,
17 of which included proxy-voting reviews. However, none of these investigations
resulted in violations with identifiable monetary damages because of a fiduciary voting
proxies.

Conclusion

Without specific requirements to document monitoring and the economic rationale for
proxy-voting decisions, EBSA does not have adequate assurances that proxies were
voted solely for the economic benefit of plan participants and beneficiaries. Fiduciaries
have hundreds of millions of proxy-voting rights representing trillions of dollars of
retirement plan assets under management. Without additional transparency and
enhanced enforcement activities, concerns about the fiduciary use of plan assets to
support or pursue proxy proposals for personal, social, legislative, regulatory, or public
policy agendas, which have no clear connection to increasing the value of investments
used for the payment of benefits or plan administrative expenses, may not be properly
addressed. This increases the potential risk to participants and beneficiaries who are
invested in plans to accrue retirement income.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employee Benefits Security
Administration:

(1) Propose amending ERISA to give the Secretary of Labor the authority to assess
    monetary penalties against fiduciaries for failure to comply with proxy-voting
    requirements;

(2) Revise proxy-voting requirements in 29 CFR 2509.08-2 to require documented
    support for fiduciary monitoring and the economic benefit for proxy-voting decisions;
    and

(3) Include fiduciary proxy vote monitoring in enforcement investigations to ensure that
    the economic benefit for proxy-voting decisions are appropriately documented.

We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                 Proxy-Voting May Not Be For The Economic Benefit
                                             8                        Report No. 09-11-001-12-121
               U.S. Department of Labor – Office of Inspector General




Appendices 





                    Proxy-Voting May Not Be For The Economic Benefit
                9                        Report No. 09-11-001-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Proxy-Voting May Not Be For The Economic Benefit
              10                     Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

The private retirement system in the United States involves about $6 trillion of
investments, including approximately $2.3 trillion of corporate stock for about 120 million
Americans. Owning this corporate stock includes the right to vote on corporate issues.
How a plan votes on corporate issues during company stockholders meetings can affect
the retirement security of plan participants and beneficiaries.

The ERISA is the primary federal law governing these retirement plan investments and
private sector employee benefit plans in general. ERISA assigns the Department of
Labor primary responsibility to enforce the fiduciary provisions of ERISA Title I. DOL
administers this responsibility through EBSA.

Owning corporate stock gives a shareholder the right to vote on proposals concerning
corporate policies and governance. Shareholder voting is the primary means by which
shareholders can influence the company's operations, its corporate governance, and
even activities of social responsibility that may fall outside of financial considerations.
Proxy-voting allows shareholders to vote when they cannot attend a shareholder
meeting.

Under DOL regulations, the fiduciary act of managing plan assets that are shares of
corporate stock includes the management of voting rights attached to those shares of
stock. EBSA’s regulations 29 CFR Part 2509.08-2 on proxy-voting requires fiduciaries to
vote solely for the plan's economic interests. When deciding how to vote proxies,
fiduciaries must consider only those factors that relate to the economic value of the
plan's investment and cannot subordinate the economic interests of the participants and
beneficiaries to unrelated objectives. Objectives, considerations, and economic effects
unrelated to the plan's economic interests cannot be considered.

Furthermore, the named fiduciary appointing an investment manager must periodically
monitor the activities with respect to the decisions made and actions taken by the
investment manager with regard to proxy-voting decisions. The proxy-voting records
must enable the named fiduciary to review not only the investment manager's voting
procedure with respect to plan-owned stock, but also to review the actions taken in
individual proxy-voting situations.

In issuing the regulations, EBSA expressed strong concern regarding shareholder
activism and the use of plan assets to promote particular legislative, regulatory, or
public policy positions that have no connection to the payment of benefits or plan
administrative expenses. The Department rejected a construction of ERISA that would
permit plan fiduciaries to expend ERISA trust assets to promote myriad public policy
preferences, and believes that these principles apply with equal force to a plan
fiduciary’s support or pursuit of a proxy proposal. Fiduciaries must be prepared to
articulate a clear basis for concluding that a proxy-vote is more likely than not to
enhance the economic value of the plan’s investment.

                                               Proxy-Voting May Not Be For The Economic Benefit
                                             11                     Report No. 09-11-001-12-121
                                            U.S. Department of Labor – Office of Inspector General




In 1986 the Senate Subcommittee on Oversight of Government Management,
conducted an inquiry on DOL’s enforcement of ERISA. One factor that led to the inquiry
was ERISA does not specify what the fiduciary responsibility is regarding proxy-voting,
causing many fiduciaries to be unclear about their responsibility to vote proxies and
maintain voting guidelines.

Between 1988 and 1996, EBSA conducted three proxy-voting projects and found,
among other things, that additional improvement was needed in plans’ monitoring of
investment managers to ensure that proxies were voted in accordance with stated
policies.

In 2004, the General Accountability Office issued an audit report entitled “Pension
Plans: Additional Transparency and Other Actions Needed in Connection with Proxy-
voting.” GAO found that DOL has never found a violation that resulted in monetary
damages, and as a result, it has never assessed a penalty or removed a fiduciary as a
result of a proxy-voting investigation. DOL’s enforcement of proxy-voting requirements
has been limited for several reasons. First, participant complaints about voting conflicts
are infrequent, at least in part, because votes cast by a plan fiduciary or proxy voter
generally are not disclosed; therefore, participants and others are not likely to have
information they need to raise questions regarding whether a vote has been cast solely
in their interest. Second, for DOL, the ERISA presents legal challenges for bringing
cases such that it is often difficult to obtain evidence that the fiduciary was influenced in
his or her voting by something other than the sole interests of plan participants. Finally,
even if such evidence existed, monetary damages are difficult to value and fines are
difficult to impose. Additionally, DOL has no statutory authority to impose a penalty
without first assessing damages and securing a monetary recovery. In part, because of
these challenges, DOL has devoted few resources to enforcing proxy-voting by plans.




                                               Proxy-Voting May Not Be For The Economic Benefit
                                             12                     Report No. 09-11-001-12-121
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of this audit was to determine to what extent EBSA has assurances that
proxies were voted solely for the economic benefit of plan participants and beneficiaries.

Scope

Our scope included EBSA policies, procedures, and enforcement actions pertaining to
proxy-voting activities for fiscal years 2008 and 2010. Additionally, we reviewed all prior
EBSA proxy-voting studies. We obtained and reviewed fiduciaries voting records and
proxy policies from selected retirement plans for the year ended December 31, 2009.
We conducted fieldwork at EBSA headquarters in Washington D.C.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
Methodology

We interviewed retirement plan fiduciaries, officials at EBSA, the Office of the Solicitor
of Labor, the SEC, and GAO to gain an understanding of the proxy-voting process,
oversight, and enforcement, and related issues. We also met with representatives of
business and labor to discuss their views on proxy-voting. Additionally, we reviewed all
prior EBSA proxy-voting studies.

To determine whether fiduciaries were able to demonstrate an economic benefit for
proxy-voting decisions, we selected and reviewed a stratified random sample of 43 out
of 4,992 retirement plans with corporate common stock investments, including employer
related securities, of $20 million or greater for plan year 2007, the most complete form
5500 filing year available during our audit. The 43 sampled plans and 4,992 retirement
plans had end-of-year common stock values of $222 billion and $2.5 trillion respectively.
We reviewed supporting documentation for plan monitoring and the voting records for
3,194 corporate proposals, both management and shareholder initiated. We contacted
plan fiduciaries and investment managers to determine the economic rationale for
voting decisions on these proposals.

We randomly selected two investment managers per plan to review voting records and
supporting documentation. For sampled plans with only one investment manager, we
selected that investment manager. For each investment manager selected we reviewed
all proxy proposals sponsored by shareholders. Wherever voting records did not identify
shareholder proposals, we utilized internet websites and the proxy statements filed with

                                              Proxy-Voting May Not Be For The Economic Benefit
                                            13                     Report No. 09-11-001-12-121
                                             U.S. Department of Labor – Office of Inspector General



the SEC. In order to be more conservative and have a higher level of confidence, the
results of these tests were not extrapolated to the universe.

In planning and performing our audit, we considered the Employment Benefit Security
Administration’s internal controls that were relevant to our audit objective. We confirmed
our understanding of these controls through interviews, obtaining, and reviewing proxy
studies, policies, procedures, and enforcement actions. Our consideration of internal
controls relevant to our audit objective would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

To achieve the audit’s objective, we relied on computer-processed data from ERISA
Filing Acceptance System II (EFAST2) Form 5500 Series plan filings. We assessed the
reliability of this data by (1) performing analytical tests of data elements, (2) interviewing
EBSA officials knowledgeable about EFAST2 data and system controls, (3) reviewing
OIG and GAO reports on EFAST2 system, and (4) tracing selected data elements to
plan documents. Based on these tests and assessments, we concluded the data was
sufficiently reliable to be used in meeting the audit’s objective.

Criteria

We used the following criteria to accomplish our audit:

   •	 29 CFR Part 2509.08-2- Interpretive Bulletin Relating to Exercise of Shareholder
      Rights

   •	 EBSA Advisory Opinion 2007-07A

   •	 SEC Final Rule - Proxy-voting by Investment Advisers IA-2106




                                                Proxy-Voting May Not Be For The Economic Benefit
                                              14                     Report No. 09-11-001-12-121
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations


DOL           Department of Labor

EBSA          Employee Benefits Security Administration

ESOP          Employee Stock Option Plan

ERISA         Employee Retirement Income Security Act of 1974

GAO           Government Accountability Office

OIG           Office of Inspector General

SEC           Securities and Exchange Commission




                                          Proxy-Voting May Not Be For The Economic Benefit
                                        15                     Report No. 09-11-001-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Proxy-Voting May Not Be For The Economic Benefit
              16                     Report No. 09-11-001-12-121
                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                        Appendix D
EBSA Response to Draft Report



     U.S. Department of Labor                 Assistant Secretary for
                                              Empioyae Benefits Security Administration
                                              Washington. D.C. 20210

              MAR 1 9 1011

         MEMORANDUM FOR:               ELLIOT P. LEWIS
                                       Assistant Inspector General for Audit

         FROM:                         PHYLLIS C. BORZI           ;\,v;, t~.'
                                       Assistant Secretary for EmplOyee  B~~er.ts Security
         SUBJECT:                      EBSA Response to orG Perfonnance Audit
                                       Draft Audit Report Number 09·11·001-12·121

         Thank you for the opportunity to comment on the recommendations in your above referenced
         Perfonnanee Audit Report on ERISA regulation of proxy voting by employee benefit plan
         investors and EBSA' s related enforcement activities.

         The Employee Benefits Security Administration (EBSA) is responsible for the administration
         and enforcement of the civil and criminal provisions of Title I of the Employee Retirement
         Income Security Act of 1974 (ERISA) and related criminal statutes. EBSA oversees
         approximately 718,000 private retirement plans, 2.6 million health plans, and similar numbers of
         other welfare benefit plans, such as those providing life or disability insurance. The employee
         benefit plans under our jurisdiction hold approximately $6.5 trillion in assets and cover
         approximately 150 million participants and beneficiaries.

         Your audit focused on EBSA's proxy voting guidance described in Interpretive Bulletin 29 CFR
         2509.08·2, and your objective was to detennine whether EBSA has assurances that proxies were
         voted solely for the economic benefit of plan participants and beneficiaries.

         The Department has long recognized the importance of the role of employee benefit plan
         investors in corporate governance and proxy voting. EBSA has periodically conducted
         enforcement studies and issued guidance on ERISA's requirements, including recently updating
         and reissuing an interpretative bulletin that applies ERISA's fiduciary rules to proxy voting
         decisions. More recently. we published a proposal to amend our regulation defining persons who
         become fiduciaries by reason of providing investment advice for a fee. This proposal specifies
         that making recommendations as to the management of securities is a fiduciary act.

         The Interpretive Bulletin makes it clear that the fiduciary act ot'managing plan assets that are
         shares of corporate stock includes the management of voting rights appurtenant to those shares of
         stock and that fiduciaries must carry out their duties relating to voting proxies prudently and
         solely in accordance with the economic interest of the plan. Nothing in our guidance was meant
         to discourage fiduciaries from exercising full shareholder right. when it is in the plan's economic
         interest to do so. For example, plan fiduciary shareholders must vote proxies on proposals to
         change a company's state of incorporation because of the possible affect on shareholder rights to
         participate in corporate decision-making, which could, in tum. affect the value of the plan's
         investment. Similarly. plan fiduciaries should independently evaluate proposals regarding




                                                            Proxy-Voting May Not Be For The Economic Benefit
                                                          17                     Report No. 09-11-001-12-121
                                                U.S. Department of Labor – Office of Inspector General




executive compensation and "golden parachute" arrangements because ofthe reasonable
expectation that such proposals will economically impact the value of the company.

Guidelines for the Department's investigators specifically include steps for reviewing a plan's
proxy voting practices. Such reviews. however, have: uncovered few, if any, violations In this
regard. we believe the guidance EBSA has provided over the years has become well understood.

OIG's RECOMMENDATIONS

Recommendation 1: Propose amending ERISA to give the Secretary of Labor the
authority to assess monetary penalties against fiduciaries for failure to comply with proxy­
voting requirements.

The Department strongly believes that ERISA should be amended to provide more effective
remedies and expanded civil penalties for fiduciary breaches. Thus, while we would support
expanding ERISA civil penalties for all fiduciary breaches, including proxy voting violations, we
do not believe it makes sense to propose the type of narrow amendment you recommend. Based
upon our enforcement experience, we do not believe proxy voting is the area most in need of
expanded remedies for plans, and their participants and beneficiaries, or of more effective
deterrents for fiduciary misconduct. In many contexts, plan fiduciaries can breach their
obligations. cause a direct and demonstrable loss to plan participants, and yet face no potential
liability for the losses under ERISA. Tbe OIG's recommendation fails to explain why it would
be appropriate to seek a remedy for proxy voting violations, while neglecting categories of
violations that clearly injure plan participants, but have no remedy.

We note that ERISA § 502(1) provides for a civil penalty (1) against a fiduciary who breaches a
fiduciary duty under, or commits a violation of, Part 4 ofritle I of ERISA or (2) against any
other person who knowingly participates in such a breach or violation. This penalty is equal to
20 percent of the amount recovcred under any senlement agreed upon b y the Secretary or
ordered by a court to be paid in a judicial proceeding instituted by the Secretary. In general, the
Secretary cannot obtain a recovery amount, in the first place, unless she can prove that a breach
caused losses to the plan. In this regard, it is typically difficult to make such a showing in the
context of proxy votes.. Most often, the plan's ownership interest is insufficient to have an
impact on the proxy vote. Even where that is not the case, numerous economic variables may
have an impact on the short- and long-tenn value of stock.

R~ommendation 2. Revise proxy voting requirements in 29 CFR 2509.08-2 (tbe
Interpretative Bulletin) to require documented support for fiduc:iary monitoring and the
economic benefit for proxy-voting dec:isions.

ERISA does not specifically require that every fiduciary decision or act, including proxy
voting decisions, be documented. Rather, the recordkeeping requirements described in the
Interpretative Bulletin are derived from the general fiduciary duties of prudence and loyally
under section 404 of ERISA. In our view, the Inlerpretative Bulletin takes an appropriate facts
and circumstances approach as to documentation of proxy voting decisions. According to the
Interpretative Bulletin, compliance with the duty 10 monitor necessitates proper documentation


                                                 2




                                                   Proxy-Voting May Not Be For The Economic Benefit
                                                 18                     Report No. 09-11-001-12-121
                                               U.S. Department of Labor – Office of Inspector General




sufficient to enable the named fiduciary to review not only the investment manager's voting
procedures with respect to plan-owned stock, but also to review the actions taken in individual
proxy voting situations. The Interpretive Bulletin recognizes that thc extent of the
documentation needed to satisfy the monitoring obligation will depend on individual
circumstances, including the subject of the proxy voting and its potential economic impact on
tbe plan's investment. For example, as to fiduciary monitoring, various types of plan
documentation of its ongoing operations may be sufficicnt to show appropriate monitoring of
proxy voting decisions. Similarly, the rationale for a managcr's vote may be to follow a
unifonn internal policy for recurring issues, and simply to document the reasons for any vote
whlch gocs against the policy.

Under section 505 of ERISA, EBSA has the authority to prescribe regulations necessary or
appropriate to carry out the provisions of Title I of ERISA. In light of our enforcement and
regulatory experience with proxy voting decisions, we do not believe we have a public record at
this time that would justify the administrative burden and expenses that would be imposed on
plans by a more expansive rccordkeeping requirement than that described in the Interpretive
Bulletin. Nor do we have a basis for uniquely singling out fiduciary proxy voting activities for a
special documentation rule that does not apply to other fiduciary actions.

Recommendation 3. Include fiduciary proxy vote monitoring in enforcement investigations
to ensure that the economic benefit for proxy-voting decisions a re appropriately
documented.

EBSA currently investigates the monitoring of proxy voting decisions. EBSA conducted three
proxy-voting projects between 1988 and 1996. As a result of these projects, the Department
included a review of proxy voting in its investment management and ESOP investigative guides.
EBSA investigations include a review of proxy voting when it is appropriate to do so. However,
when such reviews have taken place, few, if any, violations relating to the voting of proxies have
been uncovered. None of these cases resulted in violations with identifiable monetary damagcs
as a result of a fiduciary 's proxy voting decision. EBSA has found procedural violations in
connection with proxy voting in the past, and obtained corrective action for these violations.

In addition, investigations may include a review of all monitoring of service providers by plan
trustees or named fiduciaries. EBSA's current investigative procedures concerning monitoring
are consistent with our statements in Recommendation 2 regarding documented support for
fiduciary monitoring.

We appreciate the opportunity to provide our comments to the dmll report and hope that they
will be helpful to you in developing a final document.




                                                3




                                                  Proxy-Voting May Not Be For The Economic Benefit
                                                19                     Report No. 09-11-001-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Proxy-Voting May Not Be For The Economic Benefit
              20                     Report No. 09-11-001-12-121
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane (Audit Director), Jason Jelen,
Marisela Sookraj, Richard Donna, Steve Chiang, Naomi Byberg, Angela Stewart,
Katherine Mitomi, Wilma Perez, Cassie Galang, and Mary Lou Casazza.




                                             Proxy-Voting May Not Be For The Economic Benefit
                                           21                     Report No. 09-11-001-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Proxy-Voting May Not Be For The Economic Benefit
              22                     Report No. 09-11-001-12-121
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
